A U D I T                  M E M O R A N D U M                         N O . 3 8


                                                                       September 14, 2004

To:               Corey Booth
                  Steve Cutler
From:             Walter Stachnik
Re:               Document Imaging System

In April 2004, the Division of Enforcement and the Office of Information Technology
(OIT) undertook an initiative to image electronically Enforcement’s discovery
documents. The Office of Inspector General learned of problems with the imaging
done to date. As a result, we surveyed system users to identify problems they were
experiencing and identify possible improvements. The audit work was performed
from June 2004 to July 2004 in accordance with generally accepted government
auditing standards.

The initial costs for contractors to image all existing discovery documents for open
cases were estimated at $55 million. Program officials estimate annual costs to
continue the imaging, including infrastructure and technical support, to be $25
million.

To date, the contractors have imaged documents from headquarters, and the
Commission’s New York, Boston, Chicago, and Philadelphia field offices. The
Commission plans to image documents from the Atlanta and Miami field offices in
fiscal years 2004-2005, and the remaining field offices in fiscal year 2005.

The project was initially scheduled to take three years to image all of the
Commission’s existing documents. The Chairman’s Office subsequently directed
that the project be significantly expedited.

We interviewed several users in Headquarters and the Northeast Regional Office
(NERO). The users mentioned several problems related to technical, quality control
and staffing issues. We communicated these issues to OIT and Enforcement staff,
who indicated that they were already aware of and working to resolve many of the
issues, as summarized below.

Therefore, we are not making formal recommendations at this time. However, we
may initiate a follow-up audit in 2005 to determine if sufficient progress has been
made.




D O C U M E N T I M AG I N G S Y S T E M ( M E M O R AN D U M 3 8 )   SEPTEMBER 14, 2004
Technical and Quality Control Issues:
     Turnaround times – Documents were scheduled to be available in electronic
     form within five business days of surrender. However, current turnaround
     times average between three and four weeks, due to technical issues. The
     slow turnaround times and other technical issues have caused delays in
     ongoing Enforcement cases. According to Enforcement, the delays have also
     caused problems for users of the images (e.g., see Incomplete imaging, below).

         System delays – Scrolling from one document to the next using the system
         sometimes takes several seconds. This results in significant delays when
         reviewing documents. OIT is currently exploring the causes of this problem.

         Broken Links - Links to other documents do not always work.

         High Speed Printers - Special high-speed printers are needed because regular
         laser printers do not work effectively with the data imaging software.
         Several offices are still waiting for these printers.

         Burning CDs - Currently, CDs of imaged documents can only be burned at
         headquarters. OIT is working to resolve this issue.

         System Outages – Users have experienced frequent system outages. OIT is
         currently configuring a redundant system so system maintenance will not
         affect current users.

         Document Mix Ups - Documents from one case have been imaged with
         documents from another case.

         Multiple data sources - Certain cases have multiple data sources, making
         document searching more difficult. Either the images have been created
         multiple times by different contractors, or the images have been loaded into a
         Commission data base multiple times.

         Incomplete Imaging – Some documents have either not yet been imaged or
         not yet loaded into a Commission data base.

         Multiple Imaging – Some documents have been imaged or loaded multiple
         times.

         Document Retrieval – It is difficult to determine which box of documents a
         particular image came from, making it cumbersome to track down original
         documents when needed.

         Training – Staff indicated that more staff training on the document imaging
         system is needed.




D O C U M E N T I M AG I N G S Y S T E M ( M E M O R AN D U M 3 8 )   SEPTEMBER 14, 2004
Staffing Issues:
Enforcement and OIT officials informed us that staffing is currently insufficient to
ensure an adequate system of quality control for the document imaging system.
Quality control procedures would better ensure that all documents are imaged
accurately and completely and the electronic files are easy to search and properly
linked to related documents.

Enforcement officials indicated that several permanent litigation support specialists
are needed to provide quality control and training for users and to perform other
duties (such as helping to draft subpoenas). Currently, temporary contractors are
providing user training and assistance, but contractors cannot perform certain
litigation support functions. Further, an OIT official informed us that additional
staffing is needed for ongoing system maintenance.

Based on a request from the offices involved, the Executive Resources Board (ERB)
recently approved requests for 31 additional IT staff to be allocated to the
headquarters Division of Enforcement, the field offices and the Office of Compliance,
Inspections and Examinations. Additional funding requests for paralegals,
administrative personnel and legal technicians were not funded at this time due to
budget constraints but may be reconsidered at the end of this fiscal year or in fiscal
year 2005. Some of the IT and other staffing requested will assist with the
document imaging project.


Cc:      George Brown
         Jim Clarkson
         Peter Derby
         George Eckard
         Lesley Florschutz
         Jim McConnell
         Joan McKown
         Darlene Pryor
         Mark Schonfeld
         Jayne Seidman
         David B. Smith
         Karen Stewart
         Chuck Staiger
         Linda Sudhoff
         Linda Thomsen
         Leanne Vaeth
         Lewis Walker
         David Wiederkehr




D O C U M E N T I M AG I N G S Y S T E M ( M E M O R AN D U M 3 8 )   SEPTEMBER 14, 2004
